U.S. Department of the Interior
Office of Inspector General




    MANAGEMENT LETTER

   MANAGEMENT ISSUES IDENTIFIED
        DURING AUDIT OF THE
   BUREAU OF LAND MANAGEMENT’S
     FINANCIAL STATEMENTS FOR
          FISCAL YEAR 2000


             REPORT NO. 01-I-309
                MARCH 2001
UNDELIVERED ORDERS – CONTRACT LINE ITEM ACCOUNTING

The BLM had an internal control weakness with its procedures for liquidating undelivered
orders when undelivered orders involved multiple obligation line items. The BLM’s
orders often have multiple line items, and contracting personnel occasionally submit
vendor invoices to the payments group for payment without identifying the proper
obligation line items to liquidate. When this occurs, payments personnel liquidate the first
line item with funds available and continue to liquidate the obligation line items in line
item order rather than matching the payment to the correct line items. Because obligation
line items involve multiple appropriation subactivities, contracting personnel should
identify the specific obligation line items that are to be liquidated.

The BLM stated that it would issue an Instruction Memorandum to inform contracting
personnel that they are responsible for identifying the proper obligation line items on
payment documents. Additionally, the BLM stated that the Instruction Memorandum would
outline a procedure for contracting personnel to annotate the correct obligation codes on
payment documents to accomplish this requirement.

GOVERNMENT PERFORMANCE AND RESULTS ACT

The BLM’s Annual Performance Plan and Fourth Quarter Performance Review, which is
an internal document for management’s use, contains incomplete data and needs to be
improved. The Government Performance and Results Act requires Federal agencies to
develop annual performance plans that establish performance goals and performance
indicators to measure the relevant outputs, service levels, and outcomes of each program
activity. Subsequently, agencies are required to report actual program performance
achieved compared with the performance goals expressed in the plan. The BLM’s fiscal
year 2000 Annual Performance Plan and the Fourth Quarter Performance Review for fiscal
year 2000 reported 15 of 42 performance measures in a percentage format without stating
the performance indicators (numerator and denominator) necessary to perform the
calculation. Performance measures presented in this format are a ratio which do not set
forth the actual performance indicators; do not provide a frame of reference for evaluating
the performance indicators achieved and putting them into context with a baseline total; do
not completely explain the agency’s progress in reaching its strategic goals; and make the
data vulnerable to error or manipulation. We suggest that the BLM, when reporting a
performance measure in a percentage format, report all performance indicators used in the
calculation and all relevant facts necessary for the reader to understand the data.

MUSEUM COLLECTIONS

The BLM’s stewardship assets include its museum collections. Statement of Federal Financial
Accounting Standards No. 8, "Supplementary Stewardship Reporting," requires Federal agencies to
provide supplementary information on the number of physical units and the condition of stewardship
assets. Draft guidance issued in August 2000 by the Stewardship Guidance Working Group of the
Federal Accounting Standards Advisory Board emphasizes the need to differentiate between (a)



                                             2
detailed records that may be needed for control purposes and (b) disclosures that are material for
stewardship reporting. The BLM has chosen to report the number of collections or facilities for
stewardship reporting purposes which is adequate disclosure. This does not, however, mean that
item counts made for control purposes should be discontinued. As good stewards, we feel that the
BLM should track individual assets and asset categories for control purposes that do not warrant
separate categorization and disclosure in their stewardship reports. During fiscal year 2000, the
BLM made excellent progress in establishing control over the individual assets in museum
collections.

The BLM has stewardship responsibilities for control systems that can be traced to administrative
rules established by the Department of the Interior. To strengthen controls over museum property,
we believe that the BLM needs to implement the cataloging and inventory standards of the
Departmental Manual (3 DM 411, "Standards for Managing Museum Property"), including
maintaining a complete inventory listing of the items and performing periodic physical verifications
of the museum property. The BLM has established a management plan to improve the accountability
for museum collections. The plan includes steps to request facilities to identify, within their
capabilities, the BLM’s collections. During fiscal year 2000, the BLM sent questionnaires to all
190 non-Federal repositories. Among other things, the questionnaires were designed to determine
the status of inventories. For example, one repository reported that it had baseline inventory by
object for approximately 90 percent of its collections. Based on the early results of its management
plan to improve the accountability for museum collections, we agree with the BLM’s approach. We
suggest that the BLM continue this approach and establish a timetable for establishing its own
baseline inventory for control purposes when it has accumulated enough data.

DISPOSAL OF PROPERTY ITEMS

The BLM needs to improve its accounting for gains and losses on disposition of assets procured
with funds other than working capital and helium funds. Currently, the BLM’s accounting system
records a gain or loss on the disposition of all assets regardless of the source of funding. When
assets are to be disposed of they are transferred to the General Services Administration (GSA). The
BLM’s Fixed Asset System calculates a gain or loss on the disposition of all assets and enters it into
the BLM’s accounting system. The GSA, however, does not reimburse the BLM for the items its
sells on the BLM’s behalf except for assets from the working capital fund and the helium fund.
Consequently, the BLM must prepare adjusting journal entries to correct its year-end accounting
records for erroneous gains and losses.

The Statement of Federal Financial Accounting Standards No. 7 provides that asset transfers out
without reimbursement decrease the results of operations and are recorded at book value of the
asset. Accordingly, the U.S. Standard General Ledger accounting model for transfer out of assets to
other Federal entities without reimbursement does not recognize a gain or loss for this type of
transaction. We suggest that the BLM record the disposals of assets from funds other than the
working capital fund and the helium fund as transfers or develop a new systems module to properly




                                             3
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL



                     Internet Complaint Form Address


                   http://www.oig.doi.gov/hotline_form.html


                  Within the Continental United States
U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    1-800-424-5081 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420

                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Pacific Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
           H OT LI N E
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-0001

Toll Free Number
      1-800-424-5081

Commercial Numbers
   (202) 208-5300
   TDD (202) 208-2420
